                               CLOSEOUT FOR M92100042

in the Directorate


                                                                          roposals submitted to




subject's proposal did not receive funding.

       OIG found that three figures in the subject's proposal were attributed by citation to a
paper by the original author. OIG then compared the subject's proposal with the original
author's papers and found that only one of these three figures appeared in the cited paper; the
other two figures appeared in other papers by the original author that were not cited in the
proposal. OIG also found that the text of the proposal contained five citation numbers for which
there were no corresponding references in the proposal's Reference List.

    OIG concluded that the errors found in the subject's proposal were sloppy and careless, but
that they did not constitute misconduct in science in the form of plagiarism. The subject
provided a citation, although incorrect in two cases, to work by the original author of the
figures. The subject did not appear to be trying to represent another individual's material as his
own. Similarly the absence of five references from the proposal's Reference List is not
misconduct in science. The author attributed, by citation number, text in the body of his
proposal to other authors. He was not representing another's work as his own. The subject
exhibited carelessness by failing to develop a comprehensive Reference List.

    OIG determined that the errors in the subject's proposal did not constitute misconduct in
science and closed this case.




           Q&~L         J   ,4303~ - ~ 1 - 9 3                                   L         /Li/      53
~onal#&huzzelli
Deputy Assistant Inspector General,                                    General for Oversight


                                          Page 1 of 2
                                              93-%3
                                 CLOSEOUT FOR M92100042
     Concurrence:




     Nancy ~ i m 6 a u m
,,
     Assistant Counsel to the Inspector General



     cc:   Assistant Inspector General for Oversight
           Inspector General




                                             Page 2 of 2
